APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 8, 2021) ........................... 1a
District Court of Johnston County, State of
Oklahoma, Findings of Fact and Conclusions of
Law Following Hearing (Signed November 16,
2020, Filed November 19, 2020) ............................. 16a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 19a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 8, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOSES RIC-E BECK,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
NOT FOR PUBLICATION
Case No. F-2019-115
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS,
Judge., Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Appellant Beck was tried by jury in the District
Court of Johnston County, Case No. CF-2017-23, and
convicted of First Degree Burglary (Count 1), in violation of 21 O.S.2011, § 1431; Aggravated Assault
and Battery (Count 2), in violation of 21 O.S.2011,

App.2a
646(A)(2); and three counts of Assault with a Dangerous
Weapon (Counts 3, 4, and 5), in violation of 21 O.S.
2011, § 645, each after former conviction of two or
more felonies. In accordance with the jury’s verdict, the
Honorable Wallace Coppedge, District Judge, sentenced
Beck to thirty years imprisonment on Count 1, life
imprisonment on Count 2, and thirty-five years imprisonment on each of Counts 3, 4, and 5, and ordered
Counts 1 through 4 to run consecutively and Count 5
to run concurrently with Count 4.
Beck raises the following errors on appeal:
(1) His convictions for Counts 3, 4, and 5 violate
the constitutional prohibition against double
jeopardy and statutory prohibition against
multiple punishment;
(2) The evidence was insufficient to support three
convictions for Assault with a Dangerous
Weapon and Counts 3 and 5 should be
reversed;
(3) He was denied a fair trial by the admission
of prejudicial evidence of other crimes and
bad acts;
(4) The district court failed to adequately instruct
the jury;
(5) He was denied a fair trial because of prosecutorial misconduct;
(6) The district court abused its discretion when
it ordered his sentences to be served consecutively; and

App.3a
(7) The State of Oklahoma lacked jurisdiction
to prosecute him because he is an “Indian”
and the crime occurred in “Indian Country”.
This appeal turns on whether Beck is an Indian
as defined by federal law, and whether he committed
first degree burglary and the various assaults within
Indian country as that term is defined by federal
law. Because the answer to both questions is yes,
federal law grants exclusive criminal jurisdiction to
the federal government on at least the burglary
charge, and possibly the assault charges as well. In
any event, the State of Oklahoma was without jurisdiction to prosecute him on any of the counts. Because
we find relief is required on Beck’s jurisdictional
challenge in Proposition 7, his other claims are moot.
1. Jurisdiction and The Major Crimes Act
Title 18 Section 1153 of the United States Code,
known as the Major Crimes Act, grants exclusive federal jurisdiction to prosecute certain enumerated
offenses committed by Indians within Indian country.
It reads in relevant part as follows:
Any Indian who commits against the person
or property of another Indian or other
person any of the following offenses, namely,
murder, manslaughter, kidnapping, maiming,
a felony under chapter 109A, incest, a felony
assault under section 113, an assault against
an individual who has not attained the age
of 16 years, felony child abuse or neglect,
arson, burglary, robbery, and a felony under
section 661 of this title within the Indian
country, shall be subject to the same law
and penalties as all other persons committing

App.4a
any of the above offenses, within the exclusive
jurisdiction of the United States.
18 U.S.C. § 1153(a) (2013).
Count 1, the first degree burglary charge, fits
squarely within the Major Crimes Act and its exclusive
federal jurisdiction. Whether Counts 2 through 5 are
among the enumerated crimes is less clear. The
assaults may constitute a “felony assault under section
113”, but that is not something we must decide
today. If the assaults are not covered under Section
1153, they are subject to the Act’s sister statute, 18
U.S.C. § 1152 (1948), which applies to other offenses
and provides for federal or tribal jurisdiction. In either
event, the State of Oklahoma is without jurisdiction to
prosecute such an assault by an Indian within Indian
country. See State v. Klindt, 1989 OK CR 75, ¶ 3, 782
P.2d 401, 403 (“[T]he State of Oklahoma does not
have jurisdiction over crimes committed by or against
an Indian in Indian Country.”)
2. Controlling Law: McGirt v. Oklahoma
In McGirt v. Oklahoma, 591 U.S. ___, 140 S. Ct.
2452 (2020) the Supreme Court held that land set
aside for the Muscogee-Creek Nation in the 1800’s
was intended by Congress to be an Indian reservation,
and that this reservation exists today for purposes of
federal criminal law because Congress has never
explicitly disestablished it. Although the case now
before us involves the lands of the Chickasaw Nation,
McGirt’s reasoning is nevertheless controlling.

App.5a
3. Two Questions Upon Remand
A. Beck’s Status as Indian
After McGirt was decided, this Court, on August
19, 2020, remanded this case to the District Court of
Johnston County for an evidentiary hearing. We
directed the District Court to make findings of fact
and conclusions of law on two issues: (a) Beck’s status
as an Indian; and (b) whether the crime occurred in
Indian Country, namely within the boundaries of the
Chickasaw Nation Reservation. Our Order provided
that, if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary. On October 1, 2020, the parties filed an
Agreed Stipulation, agreeing that: (1) Beck has some
Indian blood (49/64 degree Indian blood); (2) he was a
recognized citizen of the Chickasaw Nation on the
date of the charged offenses; (3) the Chickasaw Nation
is a federally recognized tribe; and (4) the charged
crimes occurred within the historical boundaries of
the Chickasaw Nation.
On October 15, 2020, the parties appeared before
the Honorable Wallace Coppedge for the scheduled evidentiary hearing. The district court acknowledged
receipt of the parties’ stipulation, granted the
Chickasaw Nation’s motion to enter as amicus curiae,
and accepted the amicus brief filed on behalf of the
tribe. The district court heard brief argument and
the State agreed the joint stipulation resolved the
factual question of Beck’s Indian status. Judge
Coppedge correctly concluded in his Findings of Fact
and Conclusions of Law, issued November 16, 2020,

App.6a
that on the date of the charged crimes, Beck was an
Indian for purposes of federal law.
B. Whether Crimes Were
Committed in Indian Country
As to the second question on remand, whether
the crimes were committed in Indian country, the
stipulation of the parties was less dispositive. They
acknowledged only that the charged crimes occurred
within the historical geographic area of the Chickasaw
Nation as designated by various treaties. At the evidentiary hearing, the State took no position on
whether Congress established a reservation for the
Chickasaw Nation or whether Congress ever erased
those boundaries and disestablished the reservation.
The parties admitted, as a joint exhibit, the Findings
of Fact and Conclusions of Law from Bosse v. State
filed in McClain County District Court, concluding
Congress established a reservation for the Chickasaws
and never erased its boundaries. Based on the parties’
stipulation and materials submitted at the evidentiary
hearing, Judge Coppedge ruled the charged crimes
against Beck occurred within the boundaries of the
Chickasaw Nation and that Congress never disestablished the Chickasaw Nation Reservation. We agree
and so held in Bosse v. State, 2021 OK CR 3, ___ P.3d
___.
In Bosse, we reviewed the rulings of the McClain
County District Court that served, in part, as the
basis for the district court’s ruling in Beck’s case. Id.,
2021 OK CR 3, ¶¶ 8-12. We considered the applicable
treaties cited by the McClain County District Court
and agreed that Congress established a reservation
for the Chickasaw Nation. Id. We further agreed that

App.7a
Congress had never erased those reservation boundaries, and, under the analysis in McGirt, the Chickasaw
Nation Reservation remains intact and is Indian
country. Id.
Our holding in Bosse requires a finding that for
purposes of federal criminal law, the land upon which
the parties agree Beck committed these crimes is
within the Chickasaw Nation Reservation and is Indian
country. Under the analysis in McGirt, we hold the
District Court of Johnston County did not have jurisdiction to prosecute Beck. Accordingly, we grant Proposition 7.
DECISION
The Judgment and Sentence of the district court
is VACATED and this matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT OF
JOHNSTON COUNTY, THE HONORABLE
WALLACE COPPEDGE, DISTRICT JUDGE
APPEARANCES AT TRIAL
Eric R. Jones
Attorney at Law
205 1/2 Plaza
Madill, OK 73446
Counsel for Defendant

App.8a
Fern Smith
Asst. District Attorney
Johnston County Courthouse
403 W. Main St., Suite 202
Tishomingo, OK 73460
Counsel for State
APPEARANCES ON APPEAL
Chad Johnson
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Julie Pittman
Assistant Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
APPEARANCES AT EVIDENTIARY HEARING
Chad Johnson
Garrett Marshall
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Fern Smith
Asst District Attorney
Johnston County Courthouse
403 W. Main St., Suite 202
Tishomingo, OK 73460
Counsel for State

App.9a
Mike Hunter
Attorney General of Oklahoma
Joshua R. Fanelli
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
OTHER APPEARANCES
Debra Gee
General Counsel
Chickasaw Nation Division of Justice
P.O. Box 1548
Ada, OK 7482 1-1 548
Amicus Curiae
OPINION BY: ROWLAND, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur
Hudson, J.: Concur in Result

App.10a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must
at a minimum concur in the results of this opinion.
While our nation’s judicial structure requires me to
apply the majority opinion in the 5-4 decision of the
U.S. Supreme Court in McGirt v. Oklahoma, ___ U.S.
___,140 S. Ct. 2452 (2020), I do so reluctantly. Upon
the first reading of the majority opinion in McGirt, I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents, but
had cherry picked statutes and treaties, without giving
historical context to them. The Majority then proceeded to do what an average citizen who had been
fully informed of the law and facts as set out in the
dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me
to resist unlawful orders. Chief Justice Roberts’s
scholarly and judicially penned dissent, actually
following the Court’s precedents and required analysis,
vividly reveals the failure of the majority opinion to

App.11a
follow the rule of law and apply over a century of
precedent and history, and to accept the fact that no
Indian reservations remain in the State of Oklahoma.1
The result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would
trade and associate. I just cannot get through my mind
how this bill can possibly be made to operate in a
State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past.” Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

App.12a
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian reservations in the state had been disestablished and no
longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.13a
LEWIS, JUDGE, SPECIALLY CONCURRING:
Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State,
2021 OK CR 4, ___ P.3d ___, I concur in the decision
to dismiss this case for the lack of state jurisdiction.

App.14a
HUDSON, J., CONCUR IN RESULTS:
Today’s decision applies McGirt u. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case and dismisses
convictions from Johnston County for first degree
burglary, aggravated assault and battery, and three
counts of assault with a dangerous weapon. I concur
in the results of the majority’s opinion based on the
stipulations below concerning the Indian status of
Appellant and the location of these crimes within the
historic boundaries of the Chickasaw Reservation.
Under McGirt, the State cannot prosecute Appellant
because of his Indian status and the occurrence of
these crimes within Indian Country as defined by federal law. I therefore as a matter of stare decisis fully
concur in today’s decision.
I disagree, however, with the majority’s definitive
conclusion that Congress never disestablished the
Chickasaw Reservation. Here, the State took no
position below on whether the Chickasaw Nation
has, or had, a reservation. The State’s tactic of passivity has created a legal void in this Court’s ability to
adjudicate properly the facts underlying Appellant’s
argument. This Court is left with only the trial court’s
conclusions of law to review for an abuse of discretion.
We should find no abuse of discretion based on the
record evidence presented. But we should not conclude
definitively that the Chickasaw Nation was never
disestablished based on this record.
Finally, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse
v. State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J.,

App.15a
Concur in Results); Hogner v. State, 2021 OK CR 4,
___ P.3d ___ (Hudson, J., Specially Concurs); and
Krafft v. State, No. F-2018-340 (Okl. Cr., Feb. 25,
2021) (Hudson, J., Specially Concurs) (unpublished).

App.16a

DISTRICT COURT OF JOHNSTON COUNTY,
STATE OF OKLAHOMA, FINDINGS OF FACT
AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 16, 2020,
FILED NOVEMBER 19, 2020)
IN THE DISTRICT COURT OF
JOHNSTON COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff,
v.
JOSES RIC-E BECK,
Defendant.
________________________
Case No. CF-2019-115
COCA No.19-115
Before: Wallace COPPEDGE, District Judge.
FINDINGS OF FACT AND CONCLUSIONS
OF LAW FOLLOWING HEARING
Pursuant to the Oklahoma Court of Criminal
Appeals (hereinafter “COCA”) Order in the above
case, this Court scheduled an evidentiary hearing to
answer the specific questions of fact outlined by the
COCA. The questions of fact were:

App.17a
1.

Does the Defendant, Joses Ric-E Beck, have
some Indian blood and is he recognized as
an Indian by a tribe or the Federal Government?

2.

Whether the crime occurred in Indian
Country.

In an attempt to ascertain all relevant facts, this
Court allowed the Chickasaw Nation to intervene in
the case to provide input into the issues outlined above.
This Court has reviewed the Amicus Brief of the
Chickasaw Nation with all attachments and exhibits.
The Chickasaw Nation appeared through attorney
Debra Gee.
This Court also reviewed the Appellant’s Brief and
the Agreed Stipulations between the parties, filed in
this case on October 1, 2020.
This Court finds that the agreed stipulations
satisfy the Defendant’s obligation to prove a prima
facie case that the Defendant has some Indian Blood
and that he is a recognized member of the Chickasaw
Nation (a federally recognized Indian tribe). The
State of Oklahoma did not offer any evidence to
contradict, rebut, or disprove those facts, and therefore
this Court concludes that the Defendant is an enrolled
member of the Chickasaw Nation.
This Court further finds that the Agreed Stipulations satisfy the Defendants obligation to prove a
prima facie case that the crime occurred within the
boundaries of the Chickasaw Nation. The State of
Oklahoma did not offer any evidence to contradict,
rebut, or disprove this stipulation and therefore this
Court concludes that the Defendant’s crimes occurred

App.18a
within the historical boundaries of the Chickasaw
Nation.
Per instructions from the COCA, this Court has
reviewed the analysis of the United States Supreme
Court in McGirt, and applying that analysis to the
record before this Court concludes that Congress
never disestablished the Chickasaw Nation Reservation.
It is so ordered this 16th day of November, 2020.
/s/ Wallace Coppedge
District Judge

App.19a

COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
JOSES RIC-E BECK,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2019-115
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Joses Ric-E Beck was tried by jury trial in the
District Court of Johnston County, Case No. CF-201723, and convicted of First Degree Burglary (Count 1),
in violation of 21 O.S.2011, § 1431; Aggravated Assault
and Battery (Count 2), in violation of 21 O.S.2011,

App.20a
646(A)(2); and three counts of Assault with a Dangerous Weapon (Counts 3,4, and 5), in violation of 21
O.S.2011, § 645, each after former conviction of two
or more felonies. In accordance with the jury’s recommendation, the Honorable Wallace Coppedge sentenced
Beck to thirty years imprisonment on Count 1, life
imprisonment on Count 2, and thirty-five years imprisonment on each of Counts 3, 4, and 5, and ordered
Counts 1 through 4 to run consecutively and Count 5
to run concurrently with Count 4. Beck must serve
85% of his sentence on Count 1 before he is eligible
for parole consideration. Beck appeals his Judgment
and Sentence.
In Proposition 7 of his Brief-in-Chief, filed July
31, 2019, Beck claims the District Court lacked jurisdiction to try him. Beck argues that he is a citizen of
the Chickasaw Nation and that the crimes occurred
within the boundaries of the Chickasaw Nation Reservation. Beck, in his direct appeal, relied on jurisdictional issues addressed in Murphy v. Royal, 875 F.3d
896 (10th Cir. 2017), which was affirmed by the United
States Supreme Court in Sharp v. Murphy, 591 U.S.
___, 140 S. Ct. 2412 (2020) for the reasons stated in
McGirt v. Oklahoma, 591 U.S. ___, 140 S. Ct. 2452
(2020).1
1 On February 21, 2020, we held Beck’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following
the decision in McGirt, the State asked to file a supplemental
response to Beck’s jurisdictional claim. Beck, post McGirt, asked
to file a supplemental brief to address the decision in McGirt
and tendered for filing a supplemental brief. Beck also asked to
supplement the record or for an evidentiary hearing. In light of
the present order, there is no need for additional responses
from the parties at this time and their present requests are
DENIED.

App.21a
Beck’s claim raises two separate questions: (a)
his Indian status and (b) whether the crime occurred
in Indian Country. These issues require fact-finding.
We therefore REMAND this case to the District
Court of Johnston County, for an evidentiary hearing
to be held within sixty (60) days from the date of this
Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Beck’s presentation of
prima facie evidence as to his legal status as an Indian
and as to the location of the crime in Indian Country,
the burden shifts to the State to prove it has subject
matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Beck’s status as an Indian. The District
Court must determine whether (1) Beck has some
Indian blood, and (2) is recognized as an Indian by a
tribe or the federal government.2
2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth, v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.22a
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Chickasaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings
of fact and conclusions of law, and any other materials
made a part of the record, to the Clerk of this Court,
and counsel for Appellant, within five (5) days after
the District Court has filed its findings of fact and
conclusions of law. Upon receipt thereof, the Clerk of
this Court shall promptly deliver a copy of that record
to the Attorney General. A supplemental brief, addressing only those issues pertinent to the evidentiary
hearing and limited to twenty (20) pages in length,
may be filed by either party within twenty (20) days
after the District Court’s written findings of fact and
conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions

App.23a
of law and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Johnston County:
Appellant’s Brief in Chief filed July 31, 2019 and
Appellee’s Response Brief filed January 15, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

